        COMPILATION OF THE FY 2000 ARMY WORKING
          CAPITAL FUND FINANCIAL STATEMENTS



Report No. D-2001-177                    August 31, 2001



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
AAA                   Army Audit Agency
AFS                   Audited Financial Statements
AR                    Accounting Report
CFO                   Chief Financial Officers
DDRS                  Defense Departmental Reporting System
DFAS                  Defense Finance and Accounting Service
WCF                   Working Capital Fund
                    Office of the Inspector General, DoD
Report No. D-2001-177                                                   August 31, 2001
  (Project No. D2001FI-0035.001)

              Compilation of the FY 2000 Army Working
                 Capital Fund Financial Statements

                              Executive Summary

Introduction. This report is the second in a series of audit reports relating to the
audit of the FY 2000 Army Working Capital Fund Financial Statements. The first
report was on our oversight of the Army Audit Agency audit of the FY 2000
Army Working Capital Fund Financial Statements. The Chief Financial Officers
Act of 1990 requires the Inspector General, DoD, to audit the financial statements
of DoD organizations in accordance with generally accepted Government auditing
standards. The Inspector General, DoD, and the Army Audit Agency jointly
performed the audit work at Defense Finance and Accounting Service
Indianapolis. The Army Audit Agency disclaimed an opinion on the FY 2000
Army Working Capital Fund Financial Statements, and we endorsed the
disclaimer. The FY 2000 Army Working Capital Fund Financial Statements
reported assets of $12.7 billion and liabilities of $754 million. Net program costs
for the Army Working Capital Fund were $3.6 billion.

Objectives. Our overall objective was to determine whether Defense Finance and
Accounting Service Indianapolis consistently and accurately compiled financial
data from field organizations and other sources for the FY 2000 Army Working
Capital Fund Financial Statements. We also reviewed management controls
related to the compilation of the financial statements.

Results. Defense Finance and Accounting Service Indianapolis (Sustaining
Forces) improved the support for the adjusting accounting entries for the FY 2000
Army Working Capital Fund Financial Statements. However, approximately
$44 billion of the $212.2 billion in adjusting accounting entries were not
adequately supported and 76 adjusting accounting entries, valued at
$152.8 billion, were not promptly approved.

The Working Capital Fund Branch made $25.3 billion in adjusting accounting
entries without adequate support or audit trails. The Working Capital Fund
Branch provided additional supporting documentation for $24.9 billion of the
$25.3 billion in adjusting accounting entries. Thirty-five adjusting accounting
entries, valued at $110.7 billion, were not approved before the FY 2000 Army
Working Capital Fund Financial Statements began to be compiled.

The Army/DoD Audited Financial Statements Branch did not adequately support
$18.7 billion in adjusting accounting entries made to the general ledger database
file. Further, 41 adjusting accounting entries, valued at $42.1 billion, were not
approved timely. As a result, the FY 2000 Army Working Capital Fund
Financial Statements were likely materially misstated. For details of the audit
results, see the Finding section of the report.

See Appendix A for details of the review of the management control program as it
relates to the controls over the automated and manual processes used to compile
the FY 2000 Army Working Capital Fund Financial Statements.

Summary of Recommendations. We recommend that the Under Secretary of
Defense (Comptroller), in conjunction with the Director, Defense Finance and
Accounting Service, incorporate the Defense Finance and Accounting Service
guidance for the preparation of adjusting accounting entries in the DoD Financial
Management Regulation. We recommend that the Director, Defense Finance and
Accounting Service, hold the Director for each entity accountable for the proper
preparation of adjusting accounting entries.

Management Comments. The Director for Accounting, Defense Finance and
Accounting Service, stated that each site Director will be required to certify that
the guidance for preparing adjusting accounting entries has been received and
implemented. Further, Internal Review personnel will also perform operational
reviews to ensure that the guidance has been implemented. The Director
disagreed with how the report classified some adjusting accounting entries and
portrayed the length of time taken to provide additional documentation to support
journal vouchers. The Director stated that he did not believe that the unsupported
adjusting accounting entries caused the financial statements to be materially
misstated. The Under Secretary of Defense (Comptroller) did not comment on
the need to incorporate the journal voucher guidance into the DoD Financial
Management Regulation. A discussion of the management comments is in the
Finding section of the report, and the complete text of the comments is in the
Management Comments section.

Audit Response. The Defense Finance and Accounting Service comments on the
recommendations were responsive. However, we maintain our position on how
we classified the adjusting accounting entries and characterized the length of time
taken to provide additional support for some journal vouchers. Defense Finance
and Accounting Service Indianapolis (Sustaining Forces) made a total of 55
adjusting accounting entries to force one set of data to agree with another set of
data without sufficient documentation or reconciliation. The voucher supporting
each adjusting accounting entry did not contain or reference sufficient information
to be considered adequately supported. It took from 9 to 36 workdays for the
Working Capital Fund Branch to provide the Army Audit Agency with additional
documentation on 7 of the 9 adjusting accounting entries that were eventually
considered supported. We believe that the FY 2000 Army Working Capital Fund
Financial Statements were subject to a high risk of material misstatement because
$44 billion in adjusting accounting entries lacked adequate support. We request
that the Under Secretary of Defense (Comptroller) provide comments on the final
report by October 1, 2001.
                                         ii
Table of Contents

Executive Summary                                  i

Introduction
     Background                                    1
     Objectives                                    2

Finding
     Accounting Entries to Financial Statements    3

Appendixes
     A. Audit Process
         Scope                                    10
         Methodology                              11
         Management Control Program Review        12
     B. Prior Coverage                            13
     C. Report Distribution                       14

Management Comments
     Defense Finance and Accounting Service       17
Background
    This report is the second in a series of audit reports on the FY 2000 Army
    Working Capital Fund (WCF) Financial Statements. The first report was on our
    oversight of the Army Audit Agency (AAA) audit of the FY 2000 Army WCF
    financial statements. This report summarizes the compilation process at
    Defense Finance and Accounting Service (DFAS) Indianapolis and reflects the
    audit work jointly performed by the Inspector General, DoD, and AAA.

    Chief Financial Officers Act. The Chief Financial Officers (CFO) Act of
    1990, as amended by the Federal Financial Management Act of 1994, requires
    DoD and other Government agencies to prepare financial statements. The Act
    also requires the Inspector General or an appointed external auditor to audit
    those financial statements in accordance with generally accepted Government
    auditing standards and other criteria that the Office of Management and Budget
    established.

    Roles and Responsibilities. The Under Secretary of Defense (Comptroller), as
    the Chief Financial Officer, DoD, is responsible for overseeing the preparation
    of agency-wide financial statements. DoD Financial Management Regulation
    7000.14-R, volume 6A, chapter 2, “Departmental Financial Reports Roles and
    Responsibilities,” February 12, 1996, states that DFAS shall establish
    procedures to ensure that the process for preparing financial reports is
    consistent, timely, auditable, and controls are in place to provide for the
    accuracy of the reports. The regulation also requires DFAS to adequately
    support, and justify in writing, any adjustment to the official accounting records.

    Role of DFAS Indianapolis (Sustaining Forces). Each month, field
    accounting entities that DFAS Indianapolis (Sustaining Forces) supports submit
    a general ledger trial balance directly to the Federal Financial System, a general
    ledger module of the Headquarters Accounting and Reporting System. They
    also submit monthly financial data on the status of appropriations to DFAS
    Indianapolis (Sustaining Forces). Two branches within DFAS Corporate
    Operations, DFAS Indianapolis (Sustaining Forces), prepare accounting reports
    and financial statements for the Army WCF. The WCF Branch prepares the
    monthly and year-end Defense WCF Accounting Report (AR) 1307 for the
    consolidated activity groups as well as the Army entity levels. The Army/DoD
    Audited Financial Statements (AFS) Branch maintains departmental accounting
    records and prepares the Army WCF financial statements.

    Preparation of Accounting Reports. The WCF Branch prepares the monthly
    AR 1307 for each field accounting entity. Most accounting entities’ general
    ledgers are transaction-driven; however, some financial data submitted to DFAS
    Indianapolis (Sustaining Forces) are not generated by an integrated
    transaction-driven general ledger system. The general ledger data in the
    AR 1307 database are supplemented with information from other sources, such
    as the Army Stock Fund Monthly Management Report/Statement 7, the Cost
    Accounting Budget general ledger, Reports on Budget Execution, and the Army
    WCF cash management report. The WCF Branch forces the general ledger data

                                         1
     in the AR 1307 database to agree with certified status of appropriations data,
     record field accounting adjusting entries, revalue inventory, record undistributed
     collections and disbursements, reconcile with the Department of the Treasury’s
     records, and record assets. After the general ledger is supplemented with other
     information, the general ledger data are used to prepare the monthly AR 1307.
     Each field accounting entity reviews its AR 1307 for accuracy and completeness
     and certifies it. At the end of the fiscal year, the WCF Branch produces the
     year-end AR 1307.

     Preparation of the Financial Statements. The DFAS Army/DoD AFS Branch
     is responsible for preparing the Army WCF financial statements. The year-end
     AR 1307 database becomes the beginning general ledger database file for the
     Army WCF financial statements. The DFAS Army/DoD AFS Branch makes
     adjusting accounting entries that are accumulated in the Journal Voucher
     database file in the Defense Departmental Reporting System (DDRS). This
     system was implemented DoD-wide in October 2000 for use in preparing the
     FY 2000 financial statements. Adjusting accounting entries are made for many
     reasons, including recording auditors’ adjustments, making intra-agency
     eliminations, and meeting special reporting requirements. DFAS Indianapolis
     (Sustaining Forces) adds footnotes and supplementary schedules, and the
     Assistant Secretary of the Army (Financial Management and Comptroller) adds
     an overview section to the financial statements to create the Army WCF
     financial statements.

     Army WCF Financial Statements. The FY 2000 Army WCF financial
     statements consist of the consolidated and consolidating balance sheets,
     consolidated and consolidating Statements of Net Cost, consolidated and
     consolidating Statements of Changes in Net Position, combined and combining
     Statements of Budgetary Resources, combined and combining Statements of
     Financing, supporting footnotes, and overview on the Army WCF financial
     statements. The FY 2000 Army WCF Consolidated Balance Sheet reported
     total assets of $12.7 billion and total liabilities of $754 million, and the
     consolidated Statement of Net Cost reported net program costs of $3.6 billion.

Objectives
     The overall audit objective was to determine whether DFAS Indianapolis
     (Sustaining Forces) consistently and accurately compiled financial data received
     from field organizations and other sources for the FY 2000 Army WCF
     financial statements. We also reviewed management controls as they related to
     the audit objective. See Appendix A for a discussion of the audit process and
     the DFAS Indianapolis (Sustaining Forces) management control program. See
     Appendix B for prior audit coverage related to the audit objective.




                                       2
           Accounting Entries to Financial
           Statements
           DFAS Indianapolis (Sustaining Forces) improved the support for the
           adjusting accounting entries for the FY 2000 Army WCF financial
           statements. However, approximately $44 billion of the $212.2 billion in
           adjusting accounting entries were not adequately supported or were
           improper. Also, DFAS personnel did not promptly approve 76 adjusting
           accounting entries, valued at $152.8 billion.

           The WCF Branch made $25.3 billion in adjusting accounting entries to
           the AR 1307 database without adequate support or audit trails. The
           year-end AR 1307 database was used as the beginning general ledger
           database file for the financial statements. The WCF Branch personnel
           were able to provide additional supporting documentation for
           $24.9 billion of the $25.3 billion in adjusting accounting entries.
           However, the documentation was not provided until as much as 36
           workdays after the 5 workday grace period. Thirty-five adjusting
           accounting entries, valued at $110.7 billion, were not approved before
           the AR 1307 was provided to the Army for certification and the FY 2000
           Army WCF financial statements began to be compiled.

           The DFAS Army/DoD AFS Branch did not adequately support
           $18.7 billion in adjusting accounting entries made to the general ledger
           database file. Further, 41 adjusting accounting entries, valued at
           $42.1 billion, were not approved timely.

           Adjusting accounting entries were not adequately supported because
           DFAS Indianapolis (Sustaining Forces) did not completely follow
           established guidance for preparing adjusting accounting entries and
           DFAS guidance did not clearly state when the adjusting accounting
           entries were to be approved. As a result, the FY 2000 Army WCF
           financial statements were likely materially misstated.

Guidance for Supporting Accounting Entries
    DFAS Arlington issued DFAS Memorandum, “Journal Voucher Guidance,”
    August 2, 2000, to each DFAS organization responsible for compiling the
    FY 2000 financial statements. The guidance requires that each adjusting
    accounting entry be adequately documented and properly approved. The
    guidance identifies the required documentation for each type of adjusting
    accounting entry and who within the organization is to approve the adjusting
    accounting entries. The guidance also required that all supporting
    documentation be identified and made available not more than 5 workdays
    following the approval of the adjusting accounting entry. In August 2000,
    DFAS Indianapolis (Sustaining Forces) prepared a journal voucher handbook
    that identified how 35 types of common adjusting accounting entries were to be
    documented.

                                      3
Adjusting Accounting Entries
    DFAS Indianapolis (Sustaining Forces) improved the documentation supporting
    the adjusting accounting entries made in compiling the FY 2000 Army WCF
    financial statements. However, approximately $44 billion of the $212.2 billion
    in adjusting accounting entries made by the DFAS Indianapolis (Sustaining
    Forces) in compiling the FY 2000 Army WCF financial statements were not
    adequately supported. In Inspector General, DoD, Report No. D-2000-173,
    “Compilation of the FY 1999 Army Working Capital Fund Financial
    Statements,” August 15, 2000, we reported that DFAS Indianapolis
    inadequately supported $127.8 billion of the $181.8 billion in adjusting
    accounting entries for the FY 1999 Army Working Capital Fund Financial
    Statements. The reduction in the dollar value of unsupported adjusting
    accounting entries from FY 1999 through FY 2000 can be attributed to a more
    concerted effort to follow the guidance in the DoD Financial Management
    Regulation and the supplemental DFAS guidance. Further improvements can be
    made if the WCF Branch and the DFAS Army/DoD AFS Branch follow
    established procedures and approving officials review the support for adjusting
    accounting entries in a more detailed and timely manner.

    AR 1307 Adjusting Accounting Entries. The WCF Branch prepared 81
    adjusting accounting entries, valued at $167.5 billion, for the general ledger data
    in the AR 1307 database. Of the 81 adjusting accounting entries, 14 entries,
    valued at approximately $25.3 billion, did not have adequate support to verify
    the accounting data or an adequate audit trail back to supporting adjusting
    accounting entries. From November 2000 through January 2001, AAA
    requested additional supporting documentation for the 14 adjusting accounting
    entries and received documentation for 9 of those adjusting accounting entries.
    After WCF Branch personnel provided the additional documentation for the
    unsupported adjusting accounting entries, AAA concluded, and we concurred,
    that 9 of 14 adjusting accounting entries, or about $24.9 billion of the
    $25.3 billion, were valid adjusting accounting entries. However, the additional
    supporting documentation was not provided to the auditors until as much as 36
    workdays after the 5 workday grace period. The WCF Branch should have
    attached sufficient documentation to the adjusting accounting entries shortly
    after the entries were prepared. AAA determined that procedures for reviewing
    adjustments to the general ledger data in the AR 1307 database needed further
    improvement. AAA will make a recommendation that DFAS Indianapolis
    (Sustaining Forces) follow the requirements in DoD Financial Management
    Regulation 7000.14-R, volume 6A, “Reporting Policy and Procedures,” and its
    own internal guidance for supporting adjusting accounting entries. Therefore,
    this report makes no recommendation concerning the entries.

    Adjusting Accounting Entries to the General Ledger Database File. The
    DFAS Army/DoD AFS Branch did not follow established guidance for
    supporting the adjusting accounting entries made to the general ledger database
    file when compiling the FY 2000 Army WCF financial statements. The DFAS
    Army/DoD AFS Branch made 170 adjusting accounting entries in DDRS,
    valued at $44.7 billion, in compiling the FY 2000 Army WCF financial
    statements. Of the 170 adjusting accounting entries, 63 adjusting accounting
                                       4
entries, valued at $18.7 billion, did not have documentary evidence to support
the entries. We classified the 63 adjusting accounting entries into three different
classifications. Table 1 shows the classifications.

              Table 1. Adjusting Accounting Entry Classifications



                                              Number of            Value of
                                              Adjusting            Adjusting
                                              Accounting       Accounting Entries
   Description of Deficiency                   Entries             (billions)

 Buyer-seller forced entries                      41                  $14.4
 Entries to correct discrepancies
 between data sources                             14                      .9
 Other unsupported or improper
 entries                                           8                    3.4

      Total                                       63                  $18.7


        Entries to Correct Different Sources of Accounting Data. The DFAS
Army/DoD AFS Branch prepared 41 adjusting accounting entries, valued at
approximately $14.4 billion, to force intragovernmental transactions between
trading partners to agree. DFAS Army/DoD AFS Branch personnel forced
buyers’ transaction data to agree with sellers’ transaction data without
reconciling the differences because the Army WCF’s systems did not capture
trading partner data at the transaction level. The Journal Voucher Guidance
states that procedures to use information from the sellers were developed due to
systems limitations that prevent the identification of buyer-side transactions by
specific trading partner. DoD plans to develop long-term systems improvements
that will include sufficient up-front edits and controls to eliminate the need for
reconciliations. The DFAS Army/DoD AFS Branch also prepared 14 adjusting
accounting entries, valued at approximately $0.9 billion, to force one set of
accounting data or financial statement to agree with another set of accounting
data or financial statement without sufficient documentation or reconciliation.
None of the 55 adjusting accounting entries were supported because DFAS
Army/DoD AFS Branch personnel did not reconcile the differences between the
two data sources to determine which one was correct. If differences among
conflicting sources of accounting data are not reconciled, DFAS has no
assurance that it is using the most accurate accounting data for financial
reporting for the Army.

       Other Unsupported Entries. The DFAS Army/DoD AFS Branch also
prepared eight adjusting accounting entries, valued at approximately
$3.4 billion, which were not adequately documented to support the validity and

                                    5
    amount of the accounting entries. For example, journal voucher identification
    number AT97A01AA3-6, valued at $12.5 million, did not explain why the
    correction was needed or have supporting documentation as to why the original
    entry needed to be reversed. The Chief, DFAS Army/DoD AFS Branch, had
    previously reviewed and approved the adjusting accounting entry. In addition,
    higher level approving officials did not return adjusting accounting entries
    valued at $100 million or more for additional support because they were not
    reviewed and approved in a timely manner. For example, journal voucher
    identification number AT97A01AC-23, valued at $3.3 billion, was approved,
    but we determined that it was not adequately supported by documentation that
    DFAS guidance required. DFAS should fully implement the Journal Voucher
    Guidance on the preparation of adjusting accounting entry to ensure that all
    changes to accounting data are properly documented. Further, the Under
    Secretary of Defense (Comptroller) should incorporate the guidance in the DoD
    Financial Management Regulation.

Approval of Adjusting Accounting Entries
    Approving officials did not always promptly review and approve adjusting
    accounting entries. Seventy-six adjusting accounting entries, valued at
    approximately $152.8 billion, were not approved in a timely manner. The
    prompt review and approval of adjusting accounting entries by approving
    officials is necessary to ensure the enforcement of the DFAS guidance on the
    preparation of adjusting accounting entries. Officials reviewing and approving
    adjusting accounting entries after they were entered in DDRS and reflected in
    official accounting reports and financial statements would be reluctant to return
    the adjusting accounting entries for additional support. The Director, DFAS,
    should hold the Director for each accounting entity accountable for the proper
    preparation of adjusting accounting entries to ensure that all changes to
    accounting data are properly documented.

    WCF Branch. Of the 81 adjusting accounting entries made by the WCF
    Branch, 35 entries, valued at $110.7 billion, were not approved by the
    appropriate approving official when the AR 1307 was provided to the Army for
    certification and to the DFAS Army/DoD AFS Branch for use in compiling the
    FY 2000 Army WCF financial statements. The DFAS guidance identified
    approval levels based on the dollar values of the adjusting accounting entries.
    Increasingly higher levels of management were to approve the adjusting
    accounting entries as the dollar value of the adjustments increased. The
    appropriate approving officials eventually approved the 35 adjusting accounting
    entries. However, some of the adjusting accounting entries were not approved
    until after the AR 1307 had been provided to the Army for certification and the
    DFAS Army/DoD AFS Branch had begun making adjusting accounting entries
    to DDRS in compiling the FY 2000 Army WCF financial statements. Further,
    in some instances, when approving officials eventually made their reviews, they
    approved the adjusting accounting entries without adequately reviewing the
    accounting entries and supporting documentation. The lack of documentation
    supporting the adjusting accounting entries should have been, but was not,
    detected by the approving officials before the auditors were provided the
    adjusting accounting entries.
                                       6
DFAS Army/DoD AFS Branch. The Chief, DFAS Army/DoD AFS Branch,
promptly approved the 128 adjusting accounting entries that were individually
valued at under $100 million. However, 41 of the 42 adjusting accounting
entries that were individually valued at $100 million or more were not approved
by the appropriate approving official in a timely manner. The 41 adjusting
accounting entries were not approved before the issuance of version 3 of the
FY 2000 Army WCF financial statements (January 23, 2001) even though 35 of
the 41 accounting entries were made before the issuance of the version 2
financial statements (December 19, 2000). For example, journal voucher
identification number AT97AO1AC-23, valued at $3.3 billion, was prepared on
November 26, 2000, but was not approved by the appropriate approving official
until 74 days later on February 7, 2001. The 41 adjusting accounting entries
had a combined value of approximately $42.1 billion. Table 2 shows the
approval levels, the number of adjusting accounting entries prepared for each
version of the financial statements, and whether or not the adjusting accounting
entries were approved before issuing each version of the financial statements.

               Table 2. Approval of Adjusting Accounting Entries
                           for Financial Statements


                                        Number of            Adjusting Accounting
                                   Adjusting Accounting       Entries Approved
                                          Entries              Before Issuance

          Approval Level          Version 2    Version 3     Version 2    Version 3

 $100 million to $500 million
 (Assistant Deputy Director,
 DFAS Corporate Operations)            23          6            No*          No

 $500 million to $1 billion
 (Director, DFAS Corporate
 Operations)                            3          0            No           No
 More than $1 billion
 (Director, DFAS Indianapolis
 [Sustaining Forces])                  10          0            No           No

  Total                                36         6

 *One  of the 23 adjusting accounting entries had been properly approved before
  the issuance of version 2.



Journal  Voucher Guidance. The DFAS guidance did not clearly state when
the adjusting accounting entries were to be approved. DFAS Indianapolis
(Sustaining Forces) personnel stated that the approving official had until the time
the financial statements were published to approve the adjusting accounting

                                   7
    entries. The FY 2000 Army WCF financial statements were published on
    February 15, 2001. AAA will make a recommendation that the adjusting
    accounting entries prepared by the WCF Branch be approved before the
    AR 1307 is provided to the Army for certification and to the DFAS Army/DoD
    AFS Branch for use in compiling the FY 2000 Army WCF financial statements.
    The Inspector General, DoD, Report No. D-2001-165, “Defense Departmental
    Reporting System-Audited Financial Statements,” August 3, 2001,
    recommended that the Audited Financial Statement module of DDRS be
    modified to contain proper internal controls that distinguish signature codes in
    the adjusting accounting entry approval role and associate the signature codes
    with the proper approval levels.

Conclusion
    DFAS Indianapolis (Sustaining Forces) made progress in improving the support
    for the adjusting accounting entries made for the FY 2000 Army WCF financial
    statements. However, DFAS Indianapolis (Sustaining Forces) personnel did not
    adequately support $44 billion of the $212.2 billion in adjusting accounting
    entries in compiling the FY 2000 Army WCF financial statements. Although
    WCF Branch personnel were able to eventually provide the additional
    documentation for 9 adjusting accounting entries, valued at about $24.9 billion,
    further improvements are necessary to adequately support all adjustments before
    they are provided to the auditors and reflected in official accounting reports and
    financial statements. Of the 251 adjusting accounting entries prepared in
    support of the FY 2000 Army WCF financial statements, 76 entries, valued at
    about $152.8 billion, were not approved in a timely manner. DFAS
    Indianapolis (Sustaining Forces) should fully implement the procedures in the
    Journal Voucher Guidance and handbook. Because of the lack of appropriate
    management controls, the FY 2000 Army WCF financial statements were likely
    materially misstated.

Management Comments on the Finding and Audit Response
    DFAS Comments. The Director for Accounting, DFAS, disagreed with how
    the audit classified some journal vouchers. The Director stated that many of the
    adjusting accounting entries were not forced adjustments. The Director took
    exception to adjusting accounting entries for revaluing inventory, recording
    property, posting undistributed amounts, and adjusting certain line items on the
    Statement of Financing. The Director disagreed with classifying some of the
    adjusting accounting entries prepared by the WCF Branch as unsupported. The
    Director disagreed with the length of time it took for WCF Branch personnel to
    provide the additional documentation needed to support some of the journal
    vouchers that AAA ultimately concluded were valid adjusting accounting
    entries. The Director also stated that he did not believe that the unsupported
    adjusting accounting entries caused the FY 2000 Army WCF financial
    statements to be materially misstated.



                                       8
    Audit Response. We did not classify the adjusting accounting entries for
    revaluing inventory, recording property, and posting undistributed amounts as
    forced adjustments. However, DFAS Indianapolis (Sustaining Forces)
    personnel did not follow established guidance in supporting the forced
    adjustments they made. DFAS Indianapolis (Sustaining Forces) made a total of
    55 adjusting accounting entries to force one set of data to agree with another set
    of data without sufficient documentation or reconciliation. It also took from 9 to
    36 workdays for the WCF Branch to provide AAA with additional
    documentation on 7 of the 9 adjusting accounting entries that were ultimately
    considered supported. The voucher supporting each type of adjusting
    accounting entry must contain or reference sufficient information to be
    considered adequately supported. The FY 2000 AWCF financial statements
    were subject to a high risk of material misstatement because $44 billion in
    adjusting accounting entries lacked adequate support.

Recommendations and Management Comments
    1. We recommend that the Under Secretary of Defense (Comptroller), in
    conjunction with the Director, Defense Finance and Accounting Service,
    incorporate the guidance for the preparation of adjusting accounting entries
    in the DoD Financial Management Regulation.

    Management Comments. Although not required to comment, the Director for
    Accounting, DFAS, stated that DFAS will work with the Under Secretary of
    Defense (Comptroller) to incorporate the journal voucher guidance into the DoD
    Financial Management Regulation.

    Audit Response. The Under Secretary of Defense (Comptroller) did not
    comment on a draft of this report. Therefore, we request that the Under
    Secretary of Defense (Comptroller) provide comments on the final report.

    2. We recommend that the Director, Defense Finance and Accounting
    Service, hold the Director for each accounting entity accountable for the
    proper preparation of adjusting accounting entries to ensure that all
    changes to accounting data are properly documented.

    Management Comments. The Director for Accounting, DFAS, concurred
    stating that the Director for each accounting entity will be held accountable for
    the proper preparation of adjusting accounting entries. Further, each site
    Director will be required to certify that the guidance for preparing adjusting
    accounting entries has been received and implemented. DFAS Internal Review
    personnel will also perform operational reviews to ensure that the guidance has
    been implemented.




                                       9
Appendix A. Audit Process

Scope
    Audit Work Performed. Our audit work was limited to the examination of the
    processes, procedures, and management controls followed by the WCF Branch
    and the DFAS Army/DoD AFS Branch for compiling financial data from field
    entities and other sources into the FY 2000 Army WCF financial statements.
    The FY 2000 Army WCF financial statements reported total assets of
    $12.7 billion, total liabilities of $754 million, and net program costs of
    $3.6 billion.

    Limitations to Audit Scope. We did not examine the accuracy of data that
    Army field accounting entities or other sources submitted nor did we attempt to
    reconcile data with subsidiary records because of the lack of audit trails and
    support for accounting adjustments.

    Audit of the FY 2000 Army WCF Financial Statements. The Inspector
    General, DoD, delegated the audit of the FY 2000 Army WCF financial
    statements to AAA. The AAA performed work at Army field entities, where it
    examined a limited number of accounting transactions of original entry. The
    Inspector General, DoD, and the AAA auditors jointly performed audit work on
    adjusting accounting entries made to the AR 1307 database and the general
    ledger database file. The AAA disclaimed an opinion on the FY 2000 Army
    WCF financial statements, and we endorsed the disclaimer.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate-level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following corporate-level goal, subordinate performance
    goal, and performance measure.

           FY 2001 DoD Corporate-Level Goal 2: Prepare now for an uncertain
           future by pursuing a focused modernization effort that maintains U.S.
           qualitative superiority in key warfighting capabilities. Transform the
           force by exploiting the Revolution in Military Affairs, and reengineer the
           Department to achieve a 21st century infrastructure. (01-DoD-02)

           FY 2001 Subordinate Performance Goal 2.5: Improve DoD financial
           and information management. (01-DoD-2.5)

           FY 2001 Performance Measure 2.5.2: Achieve unqualified opinions
                                       −DoD-2.5.2)
           on financial statements. (01−




                                       10
    DoD Functional Area Reform Objectives and Goals. Most major DoD
    functional areas have also established performance improvement reform
    objectives and goals. This report pertains to achievement of the following
    functional area objective and goal.

           Financial Management Area. Objective: Strengthen internal controls.
           Goal: Improve compliance with the Federal Managers' Financial
           Integrity Act. (FM-5.3)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Financial Management high-risk area.

Methodology
    Audit Work Performed. We oversaw the AAA review of the adjusting
    accounting entries made by the WCF Branch to the AR 1307 database and the
    passing of the AR 1307 database to the DFAS Army/DoD AFS Branch. Our
    audit work focused on the adjusting accounting entry process to correct the
    accounting data from the field. We examined the adjusting accounting entries to
    determine whether the DFAS Army/DoD AFS Branch had support for the
    changes to the general ledger accounting data from the field entities and whether
    DFAS Army/DoD AFS Branch had appropriate approval. We also reviewed
    accounting policy and procedures in DoD Financial Management
    Regulation 7000.14-R, volume 6A, chapter 2, “Departmental Financial Reports
    Roles and Responsibilities,” February 12, 1996. We compared the support for
    the adjusting accounting entries to the guidance in DFAS Memorandum,
    “Journal Voucher Guidance,” August 2, 2000.

    Use of Computer-Processed Data. We did not rely on the computer-processed
    data used to prepare the FY 2000 Army WCF financial statements because the
    DoD accounting and related systems were unreliable. The unreliable
    computer-processed data used in preparing the financial statements and this
    report were the only financial data available. AAA and the Inspector General,
    DoD, reviewed a total of 251 adjusting accounting entries, valued at
    $212.2 billion. The WCF Branch made 81 adjusting accounting entries, valued
    at $167.5 billion, to the AR 1307 database file. The DFAS Army/DoD AFS
    Branch made 170 adjusting accounting entries, valued at $44.7 billion, to the
    general ledger database file.

    Audit Type, Period, and Standards. We performed this financial-related audit
    at DFAS Indianapolis (Sustaining Forces) from October 2000 through March
    2001 in accordance with auditing standards issued by the Comptroller General
    of the United States as implemented by the Inspector General, DoD. We did
    our work in accordance with generally accepted Government auditing standards
    except that we were unable to obtain an opinion on our system of quality
    control. The most recent external quality control review was withdrawn on
    March 15, 2001, and we will undergo a new review.




                                       11
    Contact During the Audit. We visited or contacted individuals and
    organizations in the DoD audit and accounting community. Further details are
    available on request.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides a reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of the Review of the Management Control Program. We evaluated the
    adequacy of management controls over DFAS Indianapolis (Sustaining Forces)
    processes and procedures for compiling financial data from field organizations
    and other sources for preparing the FY 2000 Army WCF financial statements.

    Adequacy of Management Controls. We identified a material management
    control weakness, as defined by DoD Instruction 5010.40, in procedures used
    by DFAS Indianapolis (Sustaining Forces) for compiling the FY 2000 Army
    WCF financial statements. Management controls were not adequate to ensure
    that adjusting accounting entries were adequately documented and properly
    approved before the Army WCF financial statements were released.
    Recommendation 2., if implemented, will improve controls over adjusting
    accounting entries. A copy of the report will be provided to the senior official
    responsible for management controls for DFAS Indianapolis (Sustaining
    Forces).

    Adequacy of Management’s Self-Evaluation. DFAS officials identified
    financial statement reporting as an assessable unit but did not perform an
    evaluation because no evaluations were scheduled to be completed until
    FY 2001.




                                        12
Appendix B. Prior Coverage

Inspector General, DoD
    Inspector General, DoD, Report No. D-2001-063, “Oversight of the Army
    Audit Agency Audit of the FY 2000 Army Working Capital Fund Financial
    Statements,” February 28, 2001

    Inspector General, DoD, Report No. D-2000-173, “Compilation of the FY 1999
    Army Working Capital Fund Financial Statements,” August 15, 2000

    Inspector General, DoD, Report No. 99-258, “Compilation of the FY 1998
    Army Working Capital Fund Financial Statements,” September 23, 1999

    Inspector General, DoD, Report No. 98-216, “Compilation of the FY 1997
    Army Working Capital Fund Financial Statements,” September 29, 1998

Army Audit Agency
    Army Audit Agency Report No. AA 01-443, “Compilation of Army Working
    Capital Fund FY 00 1307 Accounting Report,” August 31, 2001

    Army Audit Agency Report No. AA 00-399, “Compilation of Selected Army
    Working Capital Fund FY 99 Financial Statements,” September 25, 2000

    Army Audit Agency Report No. AA 99-161, “Army Working Capital Fund
    Principal Financial Statements for Fiscal Year 1998: Report on Internal
    Controls and Compliance With Laws and Regulations,” February 12, 1999

    Army Audit Agency Report No. AA 99-137, “Army Working Capital Fund
    Principal Financial Statements for Fiscal Year 1997: Accounting Support,”
    November 25, 1998




                                      13
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
     Director for Accounting Policy
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Indianapolis (Sustaining Forces)

Non-Defense Federal Organization
Office of Management and Budget




                                           14
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         15
Defense Finance and Accounting Service
Comments




                      17
18
19
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Paul J. Granetto
Richard B. Bird
Carmelo G. Ventimiglia
Gary S. Woodrum
Audrey M. Spear
Jeffrey D. Marshall
Stephen G. Wynne
